 Report No. D-2008-113          July 28, 2008




         Independent Auditor's Report
on Management's Assertion of Audit Readiness
    for Line 4., Nonexpenditure Transfers,
   Reported in the Air Force General Fund
 Combined Statement of Budgetary Resources
Additional Copies

To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                400 ARMY NAVY DRIVE
                           ARLINGTON, VIRGINIA 22202-4704




                                                                           July 28, 2008

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                SERVICE

SUBJECT: Report on Management's Assertion of Audit Readiness for Line 4.,
         Nonexpenditure Transfers, Reported in the Air Force General Fund
         Combined Statement of Budgetmy Resources (Report No. D-2008-113)



       We are providing this report for information and use. No written response to this
report was required. Therefore, we are publishing this report in final form.

      We appreciate the courtesies extended to the staff. Please direct questions to
Ms. Amy J. Frontz at (303) 676-7392 (DSN 926-7392) or Mr. M. James Herbie at (303)
676-3280 (DSN 926-3280). The team members are listed inside the back cover.




                               Patricia A. Marsh, CPA
                             Assistant Inspector General
                          Defense Financial Auditing Service
Table of Contents

Independent Accountant’s Report                                              1

Appendix. Supplementary Information
            Management’s Assertion of Audit Readiness                        3
            Criteria to Evaluate Management’s Assertion of Audit Readiness   3
            Validation of Management’s Assertion of Audit Readiness          4
                                  INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704




                                                                              July 28, 2008

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Independent Accountant's Report on Management's Assertion of Audit
         Readiness for Nonexpenditure Transfers Reported in the Air Force General
         Fund Combined Statement of Budgetary Resources
         (Report No. D-2008-l13)


We have examined management's assertion of audit readiness, revised March 8, 2007,
for Air Force General Fund Nonexpenditure Transfers, Net, Anticipated and Actual,
reported on line 4 of its Combined Statement of Budgetary Resources (See Appendix).
Air Force management is responsible for its assertion of audit readiness. The
engagement memorandum executed December 8, 2007, between the Air Force and the
Inspector General, Department of Defense, sets forth the following criteria for the
assertion of audit readiness. Air Force is responsible for: the selection and application of
appropriate generally accepted accounting principles to present Nonexpenditure Transfers
fairly; the design and implementation of adequate internal controls over financial
reporting, including the prevention and detection of fraud; the identification of applicable
laws and regulations affecting Nonexpendihlre Transfers and implementation of
compliance controls related thereto; providing auditors with sufficient appropriate audit
evidence on a timely basis to complete the examination; and demonstrating its ability to
sustain audit readiness in future periods. Our responsibility is to express an opinion on
management's assertion of audit readiness based on our examination.

We conducted our examination in accordance with attestation standards established by
the American Institute of Certified Public Accountants and generally accepted
government auditing standards as stated in the Government Accountability Office's
"Government Accounting Standards." Those standards require examining, on a test
basis, evidence supporting management's assertion of audit readiness for Nonexpenditure
Transfers in the General Fund Combined Statement of Budgetary Resources and
performing such other procedures as we considered necessary in the circumstances. Our
objective was not to express an opinion on the balance of Nonexpenditure Transfers as of
any specific point in time. We believe that our examination provides a reasonable basis
for our opinion on management's assertion.

In our opinion, management's assertion of audit readiness for Nonexpenditure Transfers,
Net, Anticipated and Actual, reported on line 4 of the Air Force General Fund Combined
Statement of Budgetmy Resources, is fairly stated in all material respects, based on
management having met its assertion responsibilities stated above.




                                             1
This report is intended solely for the infOlmation and use of the Assistant Secretary of the
Air Force (Financial Management and Comptroller) and Director, Defense Finance and
Accounting Service, and is not intended to be and should not be used by anyone other
than the specified parties. However, this report is a matter of public record and its
distribution is not limited.



                                 fJ~a.!J1~
                                Patricia A. Marsh, CPA
                              Assistant Inspector General
                           Defense Financial Auditing Service




                                             2
Appendix. Supplementary Information

Management’s Assertion of Audit Readiness

The Office of the Under Secretary of Defense (Comptroller) established certain business
rules under its Financial Improvement and Audit Readiness plan in 2004. It revised these
rules in 2007. Components of the Department of Defense measure progress under the
plan by making improvements in business segments related to financial reporting and
receiving validation that each improved business segment is ready for audit. The
Components must sustain audit readiness for business segments validated. Air Force and
Defense Finance and Accounting Service management prepared a formal written
assertion of audit readiness for Nonexpenditure Transfers, Net, Anticipated and Actual as
reported in the Air Force General Fund Combined Statement of Budgetary Resources.
Management’s assertion, as revised March 8, 2007, was the subject of our attestation
examination.

The Defense Finance and Accounting Service – Denver (DFAS) provides finance and
accounting support to the Air Force. DFAS accumulates and processes Air Force
General Fund Nonexpenditure Transfers for reporting in the Combined Statement of
Budgetary Resources. During FY 2007, the Air Force had 165 Nonexpenditure
Transfers. For the year ended September 30, 2007, the Air Force reported over
$861 million on line 4, Nonexpenditure Transfers, Net, Anticipated and Actual in the
Combined Statement of Budgetary Resources for the Air Force General Fund. The DoD
FMR, volume 6B, chapter 7 defines Line 4 of the Statement of Budgetary Resources as
Nonexpenditure transfers, net, anticipated and actual. This line is the net amount of
budget authority or unobligated balance of prior year budget authority transferred to or
from an appropriation accounts. It includes a current estimate of any balances transferred
to or from an appropriation account under existing legislation.

Criteria to Evaluate Management’s Assertion of Audit Readiness

The Air Force Deputy Assistant Secretary Financial Operations (Financial Management)
and the Assistant Inspector General, Defense Financial Auditing Service, executed an
engagement memorandum for the attestation of the Air Force Nonexpenditure Transfers
Audit Readiness Assertion. This memorandum set forth certain Air Force
responsibilities, which are the criteria for our validation of its assertion.

        a. Management is required to present fairly, in all material respects, the amount
and any appropriate footnote disclosures for Nonexpenditure Transfers, in conformity
with generally accepted accounting principles. This requirement is an integral part of
management’s responsibility. Implicit in this responsibility is management’s ability to
select and apply appropriate generally accepted accounting responsibilities for
Nonexpenditure Transfers. In addition, the planned financial statement presentation and
footnotes for Nonexpenditure Transfers must be: (1) informative of matters that may
affect their use, understanding, and interpretation by a user, (2) classified and

                                            3
summarized in a reasonable manner, and (3) a proper reflection of the underlying
transactions and events that presents financial position, costs and changes in net position,
and budgetary resources activity within limits that are reasonable and practicable for the
financial statements.

        b. Management is responsible for adopting sound accounting policies and for
establishing and maintaining internal controls that will initiate, record, process, and report
transactions (as well as events and conditions) that are consistent with management’s
assertions of existence, completeness, valuation and allocation, rights and obligations,
and presentation and disclosure embodied in the financial statements. Management must
document its internal controls over financial reporting for Nonexpenditure Transfers,
review the design effectiveness, and test the operating effectiveness of such controls.
There should not be any significant deficiencies or material weaknesses in internal
controls over financial reporting for Nonexpenditure Transfers.

        c. In addition to reliability of financial reporting, effective internal controls are
designed to provide reasonable assurance of compliance with applicable laws and
regulations. Management must identify significant laws and regulations applicable to
Nonexpenditure Transfers and the key controls in place that ensure compliance.

        d. During an examination, management must provide sufficient and appropriate
evidence and timely support for the auditor’s inquiry, inspection, observation, re-
performance, and confirmation audit procedures. This includes providing accounting
records and original supporting documents, as well as appropriate subject matter experts
on a timely basis. Because an auditor’s knowledge of the accounting systems and
processes, internal controls, and financial statement presentation for Nonexpenditure
Transfers is limited to that acquired through the audit, management’s complete and
timely cooperation is integral to an efficient and effective audit.

       e. Management is required to sustain audit readiness in future periods for any
business segment validated in accordance with the previously mentioned business rules
under the Department of Defense Financial Improvement and Audit Readiness Plan.
Management must present a written plan for monitoring and sustaining the audit
readiness of the validated business segment in future fiscal years.

Validation of Management’s Assertion of Audit Readiness

We conducted this attestation engagement from November 2007 through April 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the attestation to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions, based on our attestation
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions, based on our attestation objectives.

We performed this examination at the Office of the Assistant Secretary of the Air Force
(Financial Management and Comptroller), Budget Management and Execution
Directorate, and at Defense Finance and Accounting Service, Denver. At these locations,
we reviewed the design and operation of internal controls over financial reporting for
                                               4
Nonexpenditure Transfers by interviews, examination of reports and other outputs for key
controls, and by re-performance of selected transactions with Air Force and DFAS
personnel. Reprogramming managers in the Office of the Assistant Secretary of the Air
Force (Financial Management) initially record Nonexpenditure Transfers into the Air
Force budget system. We examined a judgmental sample of Nonexpenditure Transfer
transactions for agreement to appropriate supporting documentation. We also examined
each of those transactions for proper authority and approval, completeness of
documentation, and clerical accuracy among all documents.

The Air Force transmits its budget system amounts to DFAS Denver for entry into the
General Accounting Finance System - Rehost (GAFS-R), which is the Air Force
accounting system of record. From GAFS-R, we obtained a population of transactions
for the United States Government Standard General Ledger accounts whose sum agreed
with line 4 in the Air Force General Fund Combined Statement of Budgetary Resources,
as of September 30, 2007. We tested the judgmental sample of transactions previously
mentioned for agreement to the budget system data. Our testing and other procedures did
not identify any significant deficiencies or material misstatements related to
management’s responsibilities with respect to its assertion of audit readiness for
Nonexpenditure Transfers reported in the Air Force General Fund Combined Statement
of Budgetary Resources.




                                           5
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Patricia A. Marsh
Amy J. Frontz
M. James Herbic
William F. Lanyi
Jacob R. Newell
Christopher S. Yablonski
Ellen Kleiman-Redden
